THE DEPARTMENT OF JUSTICE’S
LITIGATION CASE MANAGEMENT
          SYSTEM

      U.S. Department of Justice
    Office of the Inspector General
             Audit Division

         Audit Report 09-22
            March 2009
                                 TABLE OF CONTENTS


                                                                                           Page

THE DEPARTMENT OF JUSTICE’S LITIGATION CASE
 MANAGEMENT SYSTEM ................................................................. 1

   Introduction ................................................................................ 1
   OIG Audit Approach..................................................................... 2
   Results in Brief ............................................................................ 3
   Background ................................................................................. 4
   Schedule Delays .......................................................................... 5
   Cost Overruns.............................................................................. 17
   Litigating Division Concerns ........................................................ 19
   Computer Sciences Corporation Response................................... 21
   Recommendation......................................................................... 21

ACRONYMS ...................................................................................... 22

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ....... 23

STATEMENT ON INTERNAL CONTROLS ............................................. 24

APPENDIX I – AUDIT OBJECTIVE, SCOPE, AND METHODOLOGY ...... 25

APPENDIX II – LITIGATING DIVISION FUNCTIONS ........................ 27

APPENDIX III – DEPARTMENT’S RESPONSE TO THE DRAFT
 AUDIT REPORT ............................................................................. 39

APPENDIX IV – OFFICE OF THE INSPECTOR GENERAL, AUDIT
 DIVISION ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
 TO CLOSE THE REPORT ................................................................. 42
                    THE DEPARTMENT OF JUSTICE’S
                LITIGATION CASE MANAGEMENT SYSTEM


Introduction

        In 2004, the Department of Justice (Department) began the Litigation Case
Management System (LCMS) project. The purpose of the LCMS project is to
develop a solution for sharing case information among seven of the Department’s
litigating components – the Executive Office for United States Attorneys (EOUSA)
and United States Attorneys Offices (USAO); Criminal Division (CRM); Civil
Division (CIV); Tax Division (TAX); Civil Rights Division (CRT); Environment and
Natural Resources Division (ENRD); and Antitrust Division (ATR). 1

                          FIGURE A: LCMS INTEGRATION




                           Source: LCMS Project Management Office


       Through the LCMS, the Department seeks to provide an enterprise
infrastructure for sharing case-related information within and between the
USAOs, Department components, partner agencies, and the public. This case
management system is intended to effectively store information once, manage it
centrally, and make it available to approximately 14,500 authorized users in the
seven litigating divisions. When fully implemented the LCMS database is
expected to hold more than 650 gigabytes of data.

      Each of the Department’s litigating divisions currently maintains its own
case management system, which is not able to share information with other
systems in the Department. As a result, these divisions cannot efficiently share
information or produce comprehensive reports among the divisions. The

      1
          In 2006, well after the LCMS project began in 2004, the Department established a new
component, the National Security Division (NSD). According to the LCMS Project Manager, the
NSD was not included in the Department’s planning for the LCMS. The LCMS Project Manager
told us that if the NSD wanted or had a need for the LCMS, future planning could accommodate
this need. The LCMS Project Manager also said that he was unsure whether the LCMS could
handle much of the NSD’s case information because the LCMS is an unclassified system and much
of the NSD’s case information is classified.
                                                 1
separate systems also hamper the ability of the litigating divisions to collaborate
and limit the timeliness and quality of case information available to Department
leadership.

      In 2004, the Department awarded a contract to Pragmatics to perform
LCMS program management activities. These activities included tracking and
managing the program schedule, monitoring and managing the program risks,
and managing the prime contractor’s performance incentive plan. The initial
award to Pragmatics guaranteed a minimum of $50,000 for the period October
2004 through September 2005. The Department planned to incrementally fund
additional task orders throughout development and implementation of the LCMS,
but did not develop an estimate of the total expected cost of Pragmatics services
over the life of the LCMS development.

      In 2005, the Department awarded a contract to Excella Consulting to
perform technical advising services related to the LCMS project. These services
included: managing, directing, and providing independent oversight of other
LCMS contractors; reviewing and providing expert analysis, feedback, and quality
assurance on other LCMS contractors’ deliverables; and tracking and managing
project schedule and performance. The initial award to Excella totaled $67,000
for the period July through September 2005. As with the Pragmatics contract,
the Department planned to incrementally fund additional task orders, but did not
develop an estimate of the total expected cost.

      In 2006, the Department awarded the prime contract to Computer Sciences
Corporation to develop and implement the LCMS. The development activities
included designing and testing the system. The implementation activities
included deploying an operational system to the seven litigating divisions and
providing training on use of the system. The estimated cost over the life of the
contract was about $42 million. Initially, the system was to be fully implemented
by December 2010.

OIG Audit Approach

      The objective of this audit was to assess whether the LCMS is meeting
schedule, cost, functional, and performance requirements. To accomplish the
objective, we interviewed various Department and Computer Sciences
Corporation officials regarding the design and implementation of the LCMS,
including the:

      •   Department’s Chief Information Officer (CIO);

      •   Department’s Deputy CIO, who also serves as the Director of the Justice
          Management Division’s Enterprise Solutions Staff;

      •   LCMS Project Manager; and
                                         2
     •   Computer Sciences Corporation Project Manager.

      We also interviewed officials from each of the seven litigating divisions
planned to receive the LCMS to determine their roles in the development of the
LCMS and their views on the design and implementation of the system. In
addition, we reviewed documents maintained by the LCMS Project Management
Office regarding the status of system implementation, including cost, schedule,
and functional and performance data.

Results in Brief

      Our audit found that the Department’s LCMS project is significantly behind
schedule, over budget, and at significant risk of not meeting the Department’s
long-term enterprise requirements for litigation case management.

       The Department initially estimated the LCMS would be implemented in the
EOUSA and USAOs by March 2008, with implementation in the six other litigating
divisions to be completed by December 2010. The Department also initially
estimated that the primary contract to develop and implement the system would
cost about $42 million, of which about $35 million was for implementation in the
EOUSA and USAOs. The Department now estimates that the LCMS will not be
fully implemented in the EOUSA and USAOs until July 2010, more than 2 years
after the initial estimated completion date for the EOUSA and USAOs, and only 5
months before the initial estimated completion date for all seven litigating
divisions.

       Because implementation of the LCMS in the EOUSA and USAOs is
significantly behind schedule, the CIO has postponed any further work related to
the other litigating divisions and does not have current schedule and cost
estimates for completing the LCMS in the other divisions. However, as of
January 8, 2009, the Department estimated that the total cost of the primary
contract to implement the LCMS in the EOUSA and USAOs will be about
$61 million, about 75 percent more than the initial estimate for the EOUSA and
USAOs and more than $18 million over the initial estimated cost of
implementation in all seven litigating divisions.

       We concluded that the delays and budget overruns occurred because:
(1) the requirements planning process was not effective, and requirements were
modified and added after much work had been done; (2) system integration and
user acceptance testing revealed severe defects, including data migration errors,
access restrictions, and other errors that required an extensive amount of time to
correct; and (3) the Department’s oversight efforts identified the severe
difficulties that the Computer Sciences Corporation was having in meeting the
schedule and cost requirements, but the Department’s actions did not minimize
the schedule and cost overruns.

                                        3
        Because of the schedule problems and cost issues, the remaining six
litigating divisions may not be committed to the LCMS and appear uncertain that
it will meet their needs. These concerns, as well as background information
about the LCMS, are discussed in more detail in the rest of the report.

Background

      The Department’s Justice Management Division (JMD) is coordinating the
LCMS project. Within JMD, the Deputy Assistant Attorney General for
Information Resource Management is also the Department’s CIO. The CIO
formulates Department-wide information technology policies and strategic plans.
The CIO also provides guidance and oversight, and makes recommendations,
concerning the information technology budget requests of the Department's
component agencies. The CIO oversees the Enterprise Solutions Staff that is
responsible for managing and overseeing critical information technology projects,
such as the LCMS, in an effort to ensure that the projects meet cost, schedule,
and performance goals.

      The LCMS is intended to provide end users and managers with access to
accurate, timely, and useful case management data. The CIO identified the
“drivers” of the need for a unified system to be:

     •   The Department spends millions each year supporting seven different
         case management systems.

     •   The use of seven independent systems inhibits effective collaboration
         and information management.

     •   Distribution of information across seven different systems makes it
         difficult and costly to generate rational, Department-level reports that
         support decision-making.

Similarly, the CIO identified the “benefits” of system implementation as:

     •   The LCMS will be one central source for case tracking data.

     •   The LCMS will replace the existing litigation case management systems
         with a common system that supports the unique needs of the individual
         components as well as the Department.

     •   Through a solution that is common across litigating divisions, the LCMS
         enables greater and more effective collaboration and information
         management.




                                         4
       •    The LCMS will make it easier for each litigating division to meet its
            requirements to manage and report on matters, cases, and related
            activities.

      The LCMS is being designed and implemented through a “blended” effort of
contractor and CIO staff. The LCMS Project Management Office within the
Enterprise Solutions Staff has four full-time employees assigned to the LCMS
project. The LCMS Project Manager reports directly to the director of the
Enterprise Solutions Staff. However, most daily activities are handled by the
three companies holding the LCMS contracts.

      As shown in Table 1, the Department planned to implement the LCMS in
three stages. The United States Attorneys were selected for the initial stage
because of the size of operations and their urgent need for a new case
management system. The USAOs have a nationwide field structure and
substantially more users than the other six litigating divisions, which are
primarily located in Washington, D.C. 2

                TABLE 1: STAGES OF LCMS IMPLEMENTATION

                                               Litigating Divisions
                                Stage           Included in Stage
                                   1       EOUSA and USAOs
                                   2       CIV, ENRD, CRT
                                   3       CRM, TAX, ATR
                             Source: LCMS Project Manager


        The LCMS was originally planned for full implementation in the EOUSA and
all USAOs by March 2008, with implementation in the other litigating divisions to
follow in 2009 and 2010. The original estimate to design and implement the
LCMS in all seven litigating divisions was approximately $42 million. 3 These
initial schedule and cost estimates have been greatly exceeded as discussed in
the following sections.

Schedule Delays

      As shown in Graph A, the LCMS project is significantly behind schedule, and
the Department is not providing estimates for the timing of full completion of the
project.

       2
           The functions of each of the divisions are contained in Appendix II.

       3
         The initial cost estimate of $42 million is for the cost of only the Computer Sciences
Corporation contract to develop and implement the LCMS. The estimate does not include the
projected costs of the Pragmatics and Excella contracts or the expected in-house government
costs because the Department did not estimate these costs at the beginning of the project.
                                                  5
                           Graph A: LCMS Schedules Changes




                                                     March 2008      September 2009 December 2010
             May 2006 Estimate




            April 2007 Estimate                          November 2008




      November 2008 Estimate                                                        July 2010



                               June   February October        June   February October   June
                               2006     2007    2007          2008     2009    2009     2010



                                                            EOUSA/USAOs
                                                            CIV/ENRD/CRT
                                                            CRM/TAX/ATR


  Source: LCMS Project Management Office Estimates


      In May 2006, the Department initially estimated that the LCMS would be
implemented in all seven litigating divisions by December 2010. The LCMS
Project Management Office staff told us that this schedule was realistic and could
have been met if the primary contractor had performed well. However,
subsequent system development did not proceed as planned.

       By December 2006, the Department realized that the May 2006 schedule
was overly ambitious. The Department requested that the Computer Sciences
Corporation revise the schedule to show a realistic timeline for completing the
project. Based on the Computer Sciences Corporation’s projections, in April 2007
the Department released a revised schedule for completing the project. While
the schedule focused on the Computer Sciences Corporation’s completion of work
in Stage 1, LCMS Project Management Office staff told us that they and litigating
division staff continued requirements planning for Stage 2. However, because
the Computer Sciences Corporation was having difficulty completing the first
stage of development and implementation within schedule and budget, the CIO
decided to postpone any further Computer Sciences Corporation work related to
the other litigating divisions and have the Computer Sciences Corporation focus
on completing the development and implementation in only the EOUSA and
USAOs. In the April 2007 estimate, the Department revised the completion date
for implementation of the LCMS in the EOUSA and USAOs to November 2008,
about 8 months later than initially planned.


                                                        6
       Yet, as of November 2008, the system still had not been implemented in
the EOUSA and USAOs. At that time, the Department again revised its
implementation schedule to show implementation in the EOUSA and USAOs by
July 2010. This was more than 2 years later than initially planned, and only 5
months before the initial estimated completion date for all seven litigating
divisions.

      As of December 2008, the system was still being developed, but had not
been implemented in any divisions or tested at the USAO pilot sites.

Causes for Schedule Delays

     We have identified several causes for the delays in implementing LCMS:

     •   The requirements planning process. This process did not result in:
         (1) a comprehensive understanding of the system requirements by the
         Computer Sciences Corporation, and (2) the identification of all user
         requirements. As a result, system requirements had to be modified and
         added, which extended the time needed to develop the system. We
         found considerable disagreement between the Department and the
         Computer Sciences Corporation over which is at fault for the modified
         and added requirements. The Department blames the Computer
         Sciences Corporation for not understanding the requirements, and the
         Computer Sciences Corporation blames the Department for changing the
         requirements and adding new requirements. As discussed in the
         Requirements Planning section below, we concluded that both the
         Department and the Computer Sciences Corporation share responsibility
         for the requirements problems.

     •   System integration and user acceptance testing. This testing
         revealed severe defects, including data migration errors, access
         restrictions, and other errors during use of the system. Fixing the
         defects, and fixing repeat defects after further testing, caused many of
         the delays. As discussed in the System Integration and User Acceptance
         Testing section below, we concluded that both the Department and the
         Computer Sciences Corporation share responsibility for the testing
         problems.

     •   Oversight of the Contractors. The Department’s oversight of the
         Computer Sciences Corporation was not sufficient to ensure the
         contractor met the LCMS schedule and cost requirements. The
         Department used a “blended” workforce consisting of government and
         contractor staff to oversee the project. While Department officials said
         that this type of workforce approach has been and continues to be used
         effectively on other Department information technology projects, it did
         not work effectively to ensure the LCMS project remained on schedule
                                        7
        and within budget. The Department’s oversight efforts identified the
        severe difficulties that the Computer Sciences Corporation was having in
        meeting the schedule and cost requirements, but the Department’s
        actions did not minimize the schedule and cost overruns. Department
        officials told us that they placed too much emphasis on trying to help
        the Computer Sciences Corporation develop the system, rather than
        taking actions to terminate the contract once they realized the Computer
        Sciences Corporation could not effectively and efficiently complete the
        project.

     In the following sections, we discuss each of these causes in more detail.

     Requirements Planning

       A key element in designing and implementing an effective information
technology system is the identification of detailed and comprehensive
requirements for the system. The requirements include the data fields,
interfaces, rules, access restrictions, reports, and many other items that are
required to enable the system to meet the operational needs of the organization.

       For the LCMS, a system planned for implementation across seven distinct
divisions, the requirements planning process was critical. However, the
Department’s requirements planning process did not result in: (1) a
comprehensive understanding of the system requirements by the Computer
Sciences Corporation, and (2) the identification of all user requirements.

        Early in the LCMS project, the Department performed a requirements
gathering process. The Department contracted with Pragmatics to perform the
initial requirements gathering for the LCMS. In addition, the Computer Sciences
Corporation performed additional requirements gathering that included
performing a business process evaluation of the litigating divisions and the
common aspects of the divisions. The LCMS Project Management Office also
formed a cross-component working group that included all seven divisions. The
group’s purpose was to discuss the various needs of the divisions and to establish
the common methodologies used to track cases.

      Although the LCMS Project Management Office, Pragmatics, and the
Computer Sciences Corporation conducted requirements gathering, the
requirements later had to be adjusted and new requirements were added during
development of the system.

      The former LCMS Project Manager in JMD told us that the Computer
Sciences Corporation did not fully understand the requirements for the system
when the development and implementation schedule was established. The
former LCMS Project Manager said that following establishment of the schedule,
the Computer Sciences Corporation found that the requirements for the system
                                        8
were far more extensive than originally identified. We asked LCMS Project
Management Office officials for documentation to support that the Computer
Sciences Corporation did not fully understand the requirements, but these
officials were unable to provide such documentation. A LCMS Project
Management Office official told us that the number of severe defects found during
system integration and user acceptance testing indicate that the Computer
Sciences Corporation did not fully understand the requirements. 4

      In contrast, a Computer Sciences Corporation official told us that the
requirements were changed after the contract was signed. The Computer
Sciences Corporation official also told us that many of the problems occurred
because the Department added new requirements after the Computer Sciences
Corporation’s Business Solutions Plan was approved by the Department.
According to the Computer Sciences Corporation official, the Department added
data elements from the EOUSA’s existing case management system, which
created new rules and reports and increased the LCMS requirements from 507 to
580 (14 percent). He said that to incorporate the additional data elements into
the LCMS, the Computer Sciences Corporation needed to perform additional work
that contributed to the delays and cost overruns. LCMS Project Management
Office staff told us that this increase in requirements is within the norm for a
project such as the LCMS and, in their opinion, should not have materially
increased the Computer Sciences Corporation’s cost and schedule.

      While both the Department and the Computer Sciences Corporation officials
agree that the requirements were modified and resulted in additional time to
develop the system, the officials do not agree on whether the modified
requirements resulted from the Department’s actions or the Computer Sciences
Corporation’s actions. It appears to us that both the Department and the
Computer Sciences Corporation share in the responsibility for the modified
requirements. The Department did identify additional requirements for the
Computer Sciences Corporation to perform as system development continued and
the Department identified at least 89 enhancements to the system during system
testing. The enhancements included items such as changing the default sort-
order on reports, providing a group calendar, and synchronizing the LCMS
calendar with Outlook.

      We believe that these additional requirements and enhancements
contributed to the additional time needed and costs incurred by the Computer
Sciences Corporation to address the issues. In July 2008, the Computer Sciences
Corporation submitted a change proposal to the Department. The proposal
stated that both the company and the Department had contributed to the
schedule delays. A company official also told us that some of the LCMS
developmental problems were the Computer Sciences Corporation’s

      4
        The defects found during testing are discussed in the System Integration and User
Acceptance Testing section below.
                                              9
responsibility, although the official did not provide specific details of how the
company delayed the schedule. Office of the CIO officials told us that they
believed the Computer Sciences Corporation staff did not fully understand the
LCMS requirements. While the schedule delays attributable to the Computer
Sciences Corporation could be the result of various failures, including inadequate
technical staff, inadequate supervision of work, and lack of understanding the
requirements, we believe the most plausible explanation is a failure by the
company to fully understand the requirements.

       System Integration and User Acceptance Testing

      System integration testing is a process that determines whether a software
system works with other systems as intended. Following integration testing, a
system undergoes user acceptance testing, which is a process to obtain
confirmation by subject matter experts, preferably the owners or clients of the
system, that the system meets mutually agreed-upon requirements. User
acceptance testing is usually one of the final stages of a project and often occurs
before a client or customer accepts the new system.

      System integration and user acceptance testing for the LCMS, conducted
from January through October 2008, identified severe defects, including data
migration errors, access restrictions, and other errors during use of the system.
The number and severity of the defects found are shown in Table 2. Severe
defects are the critical and major defects, as defined below, and they must be
corrected before the project can continue. Table 2 also shows the percentage of
each defect type found during testing of the LCMS.

            TABLE 2: DEFECTS FOUND DURING SYSTEM INTEGRATION
                   AND USER ACCEPTANCE TESTING OF THE LCMS

 Defect Severity   Total   Percentage                       Description
                                        A previously functioning baseline has failed in such a
 Critical            46         3.6%    manner as to prevent the accomplishment of critical
                                        mission functions.
                                        Adversely affects the accomplishment of an
 Major              261        20.6%    operational or mission essential capability and no
                                        user-acceptable work-around solution is known.
                                        Adversely affects the accomplishment of an
 Average            516        40.7%    operational or mission essential capability but a
                                        user-acceptable work-around solution is known.
                                        Results in user/operator inconvenience but does not
 Minor              271        21.4%    affect a required operational or mission essential
                                        capability.
                                        System improvement or enhancement that is
 Enhancement        173        13.7%    subject to consideration by the LCMS Change
                                        Control Board.
                   1,267        100%


                                            10
      Examples of the severe defects found during testing are shown in Table 3.

               TABLE 3: EXAMPLES OF SEVERE DEFECTS FOUND
                      DURING TESTING OF LCMS

                                Examples of Severe Defects
    Critical Defects
    System errors when a record is selected for expunging.
    System errors when saving a record that has certain blank field values.
    Attorney caseload reports show data for entire district instead of for selected attorney.
    Major Defects
    System cannot change records from matter to case in court history.
    System cannot create appeal records.
    System allows charged and dispositioned participants to be deleted from the case.

      We believe these severe and repeat defects reflect on the quality of the
Computer Sciences Corporation’s work, and that fixing these defects and further
testing caused many of the delays to the LCMS project. When defects were
detected during the testing, the schedule had to be revised to accommodate the
time necessary for fixing the errors. According to an October 2006 detailed
estimated schedule prepared to support the May 2006 summary schedule,
system integration testing was planned to begin in February 2007 and last about
6 weeks. However, system integration testing did not begin until January 2008.
The October 2006 estimate also showed that user acceptance testing would begin
in April 2007 and take just over 3 months. Yet, user acceptance testing did not
begin until July 2008. Each of these tests identified significant defects and
required significant fixes and retesting.

      As of December 2008, the program was still undergoing both system
integration testing and user acceptance testing. This testing, fixing, and
retesting were expected to continue until October 2009.

      In the Computer Sciences Corporation’s July 2008 change proposal, it
attributed 25 percent of the system integration testing delays to the Department
because the testing management tool provided by the Department could not be
accessed by company staff for the first 2 weeks of testing. However, the change
proposal stated that the company was the cause of the remaining 75 percent of
system integration testing delays, although it did not elaborate on the reasons for
the delays.

       In our opinion, problems found during system integration and user
acceptance testing occurred because the Computer Sciences Corporation did not
fully understand the system requirements and did not perform work of sufficient
quality, and because the Department added new requirements and system
enhancements during the process.



                                               11
Department Oversight

       According to Office of Management and Budget (OMB) Circular A-130,
Management of Federal Information Resources, federal agencies must provide
sufficient oversight to ensure that major information systems proceed in a timely
fashion towards agreed-upon milestones in an information system life cycle.
However, in 2006, at the initiation of the Computer Sciences Corporation contract
for the design, development, and implementation of the LCMS, the Department
committed only two full-time government employees to the project – a LCMS
Project Manager and Deputy LCMS Project Manager. Because the Department
did not have the in-house resources to fully oversee the contract, the Department
awarded a program management contract and a technical advisory contract for
much of the oversight of the Computer Sciences Corporation. Department
officials told us that its approach to use both government and contractors to
oversee information technology projects has been and continues to be used
effectively on other Department projects. However, this approach has not
worked effectively to keep the LCMS project on schedule and within budget as
required by OMB Circular A-130.

      After the project began to experience significant delays and cost overruns
in 2006 and 2007, the Department did not commit additional full-time JMD
employees to the project until February 2008, when it added an Application Lead
to the project team to oversee the technical development of LCMS. Later in
2008, the Department added two JMD employees to the team – a Project
Management Lead to oversee the project management of LCMS and a Chief
Architect to coordinate data center related issues and perform risk and
configuration management. However, in August 2008, the Deputy Project
Manager left the LCMS Project Management Office. As of December 15, 2008,
the Deputy position was not filled, leaving the LCMS Project Management Office
staffed by only four full-time government employees.

       The Department’s oversight of Computer Sciences Corporation was based
partly on the performance incentive plan submitted by the Computer Sciences
Corporation and approved by the Department. The Computer Sciences
Corporation contract for the development and implementation of the LCMS was a
time and materials, labor hour-contract with a performance incentive plan and
fee structure. For a time and materials, labor hour-contract, the contractor bills
for the specific time, materials, and labor used to produce the products or
services. Under the terms of the contract, the Computer Sciences Corporation
billed for 75 percent of its labor costs and the remaining 25 percent was allocated
to an incentive pool. At the end of certain contract milestones, the Department
evaluated the performance of the Computer Sciences Corporation based on
pre-established criteria, usually related to schedule compliance and quality of
deliverables, and the Computer Sciences Corporation receives a percentage of
the incentive pool based on the performance evaluations.

                                        12
       The Department’s use of the performance incentive plan process was not
effective to ensure that the Computer Sciences Corporation met the schedule and
budget requirement for the LCMS. From award of the contract in May 2006
through December 2008, the Department completed only two performance
evaluations under the performance incentive plan of the Computer Sciences
Corporation. No evaluation had been completed in the last 15 months of the
period.

      The Computer Sciences Corporation’s December 2006 performance
incentive plan established 11 milestones for evaluation of its performance, as
noted in Table 4.

        TABLE 4: LCMS MILESTONES CONTAINED IN DECEMBER 2006
                 PERFORMANCE INCENTIVE PLAN

                                                                             Department’s
                                                                               Planned
                                                                              Acceptance
                                 Milestone                                       Date
        Contractor’s delivery and the Department’s acceptance of an
    A   Enterprise Functional Requirements Document, a Preliminary            12/06/2006
        Design Document, and a Technical Architecture Document.
        Completion of development and configuration of an LCMS
    B                                                                         03/30/2007
        system ready for pilot testing in the EOUSA and USAOs.
    C   Completion of LCMS pilot testing in the EOUSA and USAOs.              07/15/2007
        Attainment of Initial Operating Capability within the EOUSA and
    D                                                                         09/21/2007
        USAOs that results when the first site goes online.
    E   Completion of LCMS fielding in the EOUSA and USAOs.                   03/05/2008
        Completion of LCMS pilot testing in the Civil, Civil Rights, and
    F                                                                         09/04/2008
        Environment and Natural Resources Divisions.
        Attainment of Initial Operating Capability within the Civil, Civil
    G                                                                         01/31/2009
        Rights, and Environment and Natural Resources Divisions.
        Completion of LCMS fielding in the Civil, Civil Rights, and
    H                                                                         09/14/2009
        Environment and Natural Resources Divisions.
        Completion of LCMS pilot testing in the Criminal, Tax, and
    I                                                                         01/15/2010
        Antitrust Divisions.
        Attainment of Initial Operating Capability within the Criminal,
    J                                                                         05/05/2010
        Tax, and Antitrust Divisions.
        Completion of LCMS fielding in the Criminal, Tax, and Antitrust
    K                                                                         12/13/2010
        Divisions.


       The Department completed its first performance evaluation in December
2006. According to the Department’s December 2006 incentive fee
determination for Milestone A, the Computer Sciences Corporation met the
delivery schedule for this milestone and therefore received 100 percent of the
incentive fee of $254,449 set aside for schedule performance. LCMS Project
Management Office staff told us that the Computer Sciences Corporation’s quality
of deliverables under Milestone A was acceptable after multiple reviews and

                                                13
corrections. Therefore, the Computer Sciences Corporation received about 89
percent of the incentive fee of $381,674 set aside for quality of deliverables.

       In July 2007, the Department agreed to the Computer Sciences
Corporation’s revised performance incentive plan schedule, which extended
completion of Milestones B through E. However, Milestones F through K, which
related to testing and completing the LCMS in the remaining six litigating
divisions, did not change. In our opinion, it is unreasonable to expect that the
Computer Sciences Corporation could delay completing the system in EOUSA and
the USAOs by 8 months and still complete the system in the remaining 6
divisions by December 2010 as previously planned.

      Table 5 shows the revision of Milestones B through E.

           TABLE 5: REVISED LCMS MILESTONES CONTAINED IN
                  JULY 2007 PERFORMANCE INCENTIVE PLAN

                                                                              Department’s
                                                                                Planned
                                                                               Acceptance
                                  Milestone                                       Date
         Contractor’s delivery and the Department’s acceptance of an
     A   Enterprise Functional Requirements Document, a Preliminary            12/06/2006
         Design Document, and a Technical Architecture Document.
         Contractor’s delivery and the Department’s acceptance of a
         draft and final Technical Deployment Plan, draft and final Initial
     B                                                                         07/16/2007
         Deployment Plan, draft and final Business Solutions Process,
         and Technical Configuration Specifications.
         Completion of development and configuration of an LCMS
     C                                                                         04/04/2008
         system ready for pilot testing in the EOUSA and USAOs.
     D   Completion of LCMS pilot testing in the EOUSA and USAOs.              08/15/2008

     E   Completion of LCMS fielding in the EOUSA and USAOs.                   11/07/2008
         Completion of LCMS pilot testing in the Civil, Civil Rights, and
     F                                                                         09/04/2008
         Environment and Natural Resources Divisions.
         Attainment of Initial Operating Capability within the Civil, Civil
     G                                                                         01/31/2009
         Rights, and Environment and Natural Resources Divisions.
         Completion of LCMS fielding in the Civil, Civil Rights, and
     H                                                                         09/14/2009
         Environment and Natural Resources Divisions.
         Completion of LCMS pilot testing in the Criminal, Tax, and
     I                                                                         01/15/2010
         Antitrust Divisions.
         Attainment of Initial Operating Capability within the Criminal,
     J                                                                         05/05/2010
         Tax, and Antitrust Divisions.
         Completion of LCMS fielding in the Criminal, Tax, and Antitrust
     K                                                                         12/13/2010
         Divisions.


      The Department performed its second performance evaluation in
September 2007. According to the Department’s September 2007 incentive fee
determination for Milestone B, the Computer Sciences Corporation completed the
milestone on August 30, 2007, 33 business days after the planned milestone date
                                      14
of July 16, 2007. Therefore, the Computer Sciences Corporation received a 33
percent reduction in the incentive fee of $897,812 set aside for schedule
performance under Milestone B. LCMS Project Management Office staff told us
that the Computer Sciences Corporation’s quality of deliverables under Milestone
B was lower than under Milestone A based on the Department’s evaluation of
draft deliverables. Therefore, the Computer Sciences Corporation received about
84 percent of the incentive fee of $1,346,719 set aside for quality of deliverables.

      As of December 15, 2008, the Computer Sciences Corporation had not
completed Milestone C, which had been scheduled for completion in April 2008.
A LCMS Project Management Office official told us that because of the extensive
delays and problems with the quality of the deliverables during Milestone C, the
Computer Sciences Corporation would receive a significantly reduced portion of
the $1,389,924 incentive pool for Milestone C. A performance evaluation for
Milestone C had been prepared in draft during December 2008 but, as of
February 3, 2009, had not been presented to the Computer Sciences Corporation
because Milestone C was not yet complete. Moreover, the Computer Sciences
Corporation had not begun Milestone D, which was scheduled for completion by
August 15, 2008, or Milestone E, which was scheduled for completion by
November 7, 2008. The LCMS Project Management Office official told us that
because the Computer Sciences Corporation had not yet completed Milestone C,
the Department has not finalized any additional performance evaluations since
September 2007 when Milestone B was completed.

       We concluded that the completion of only two performance incentive
evaluations during 31 months is not sufficient oversight to minimize delays and
keep a major information technology project such as the LCMS on schedule and
within budget. However, Department officials told us that the Computer Sciences
Corporation would not permit more frequent oversight and denied them access to
its interim performance data. The Computer Sciences Corporation took the
position that, under a performance-based contract, completion of each milestone
is the responsibility of the contractor and the government should not be involved
in evaluating performance until the milestone has been completed. We asked
Department officials if the Computer Sciences Corporation’s denials of
performance data were documented and the officials said the denials were based
on verbal conversations.

       The Office of the CIO also performs several other routine oversight
activities on the LCMS project. Monthly contract program reviews are held by the
LCMS Project Manager and Computer Sciences Corporation Project Manager to
review cost and schedule status. Monthly executive program reviews are held by
the CIO to review the overall program status and management issues. Weekly
project status meetings are held by the LCMS Project Manager and the Computer
Sciences Corporation Project Manager to review the schedule status in detail. In
addition, LCMS Project Management Office staff told us that they perform other

                                        15
oversight activities including review of the Computer Sciences Corporation’s
outlines, rough drafts, and final deliverables.

       The LCMS Project Management Office staff also stated that the office’s
oversight was complicated by the turnover in Computer Sciences Corporation
staff assigned to the LCMS project. The LCMS Project Management Office staff
said that the 50 LCMS-related project positions had been filled by 168 Computer
Sciences Corporation contractor staff members through February 3, 2009.

       Notwithstanding the weekly and monthly review activities by the LCMS
Project Management Office and in light of the turnover in Computer Sciences
Corporation staff, we do not believe it is prudent for the Department to evaluate
the Computer Sciences Corporation’s or any other contractor’s incentive
performance only upon completion of major milestones. This is especially true
when milestones are regularly extended, which in turn extends the time between
performance evaluations. Extended periods between performance evaluations,
such as those for the LCMS, allow critical performance deficiencies to continue for
significant periods of time before corrective actions are taken, thus putting the
project at risk for schedule and budget overruns.

      On July 18, 2008, the Computer Sciences Corporation sent the Department
a contract change proposal in which the Computer Sciences Corporation claimed
that much of the delays in performance were attributable to Department actions,
including the following.

      •   User Acceptance Testing was extended from 27 days to 5 months
          because of understaffing in the EOUSA during the requirements and
          design phases. The extended user acceptance testing caused delays
          throughout the rest of the project.

      •   The Department added data elements from the EOUSA’s existing case
          management system that created new rules and reports and increased
          the LCMS requirements from 507 to 580 (14 percent).

      •   The Department delayed systems integration testing because problems
          with Quality Center configuration resulted in extra labor for manual
          documentation of testing and reduced the primary contractor’s efficiency
          in the testing.

      •   The Department did not establish standards that defined the necessary
          quality of various documents required as deliverables.

      •   The Department lacked a change management process to evaluate
          changes and provide approval.


                                        16
       •   The Department experienced staffing shortages and turnover in both the
           LCMS Project Management Office and the EOUSA that required the
           primary contractor to devote significant time to working with new
           people.

       •   The Rockville data center experienced problems including bad files and
           overwritten data that caused delays.

      In December 2008 we discussed the Computer Sciences Corporation’s
concerns with the CIO and his staff members. They told us that the Computer
Sciences Corporation was attempting to shift blame for its poor performance to
the government. The CIO told us that the Computer Sciences Corporation’s team
managing the LCMS project lacked management expertise to effectively
implement the project and that the Computer Sciences Corporation’s
performance on the LCMS project was substantially deficient. In addition, the
CIO told us that his office urged two changes in the Computer Sciences
Corporation Project Manager position as a result of significant concerns about the
Computer Sciences Corporation’s progress on the LCMS.

       While it is clear to us that the Computer Sciences Corporation has had
significant difficulty implementing the LCMS, we also believe the lack of more
frequent government oversight and corrective actions also contributed to the
delays in implementing the system. 5

Cost Overruns

     As the timeframe for project completion stretched out, estimated
completion costs also escalated. Graph B depicts changes in estimated
completion costs.




       5
          We plan to perform a follow-up audit of the three LCMS contracts and during this audit
we will evaluate the validity of the Computer Sciences Corporation’s claims contained in its July
2008 change proposal.
                                                17
                                GRAPH B: ESTIMATED COMPLETION COSTS FOR THE
                                COMPUTER SCIENCES CORPORATION CONTRACT


                          $60
                                                                      $60.6M
                          $58
                          $56
                          $54
                                                    $51.2M
                          $52
                                                     $3.4M
                          $50
                          $48
                                                     $4.2M
                          $46
            In Millions
                          $44                                                        EOUSA/USAOs
                                    $42.3M           $43.6M
                          $42        $3.4M                                           CIV/ENRD/CRT
                          $40                                                        CRM/TAX/ATR

                          $38       $4.2M

                          $36
                          $34       $34.7M
                          $32
                          $30
                                  Initial Plan       Replan       Current Estimate
                                   May 2006      September 2007    December 2008

          Source: LCMS Project Management Office Estimates


        As demonstrated in Graph B, the December 2008 estimate of costs for the
Computer Sciences Corporation to complete implementation of LCMS in the
EOUSA and USAOs is about $61 million. 6 This exceeds the original estimate for
completion of EOUSA and USAO implementation by about $26 million, about a
75-percent increase. Additionally, the December 2008 estimate to implement
LCMS in the EOUSA and USAOs exceeds the original estimate for all seven
litigating divisions by more than $18 million. Moreover, these costs are
associated only with the Computer Sciences Corporation contract, and do not
include other expenses such as the project management and technical advising
contracts, government salaries, and expenses for the data center to maintain the
database. The expenses incurred through December 2008 for these other
expenses totaled about $11 million. As of January 13, 2009, the LCMS Project
Management Office was working to estimate how much of these additional
expenses will be needed to complete implementation in the EOUSA and USAOs.
This will result in a total cost for implementing LCMS in the first litigating division
of more than $72 million. According to the LCMS Project Manager, the currently
approved funding may be enough to implement the LCMS only within the EOUSA
and the USAOs, and the prospect of congressional approval of funding to
continue development of the system for implementation in the other six litigating
divisions is uncertain.




      6
          As of January 8, 2009, this was the most recent estimate of the costs to complete LCMS.
                                                        18
     Because of the problems with the Computer Sciences Corporation, the
LCMS Project Manager told us he no longer has an estimated cost for
implementing LCMS in the remaining six litigating divisions.

Litigating Division Concerns

        As noted previously, because of development difficulties, work related to
the six other litigating divisions was stopped. At the time of the work stoppage
for the six divisions, the effort related to these divisions was primarily limited to
the initial requirements gathering. Because of the significant delays in
implementing the LCMS and the uncertainty of future funding for the LCMS, we
believe the system is now at high risk of not meeting the needs of the other six
litigating divisions as initially designed.

       The Computer Sciences Corporation contract for development of the LCMS
was awarded in May 2006. During the first year of the contract, the Computer
Sciences Corporation was required to conduct a business process assessment. As
part of this assessment, the Computer Sciences Corporation performed a cross-
component review to determine the operating environment for each litigating
division and how it would affect the LCMS. A cross-component working group
made up of representatives from all the litigating divisions and the Computer
Sciences Corporation was established to conduct this review and to ensure the
requirements of all the divisions were considered when developing the system.
The review was completed in February 2007.

       However, because of the schedule delays and cost overruns, the cross-
component working group ceased operating in 2007, and all Computer Sciences
Corporation-related LCMS work focused solely on the EOUSA and USAOs. A
second cross-component working group effort consisting of LCMS Project
Management Office staff and litigating division staff continued work on
requirements planning for the litigating divisions through February 2008, at which
time the effort ended. By ceasing all work on the cross-component issues, the
resulting system will only meet the needs of the USAO. The LCMS Project
Management Office staff told us that in order to meet the needs of the Stage 2
and 3 litigating divisions (see TABLE 1), a detailed requirements planning process
will be required with each of the divisions. That process would include:
(1) developing a full understanding of the business process for each division;
(2) determining how each division uses its existing case management system to
conduct business; and (3) identifying each division’s rules and requirements
governing data entry, system access, and report development.

       In November 2008 we interviewed officials from each of the six litigating
divisions in Stages 2 and 3. We found that after the cross-component working
group was disbanded, the LCMS Project Management Office did not keep the
divisions informed of the progress of the system.

                                          19
       The Stage 2 division officials (Civil, Civil Rights, ENRD) told us that their
divisions were operating on outdated systems that were no longer supported by
the vendor. As a result, all three divisions are in need of a new case
management system. However, due to a lack of updates from the LCMS Project
Management Office, officials in these divisions told us they did not know when to
expect a new case management system. Officials from all three divisions also
told us they were concerned about the ability to maintain their existing systems
long enough to wait for LCMS. Additionally, these officials were concerned that
the LCMS would not meet all of their operational needs when implemented in
their divisions. The concerns raised by the Stage 2 division officials included:

      •   adequacy of system access restrictions,

      •   thoroughness of integration between various system modules, and

      •   adequacy of the time-tracking module.

       The Stage 3 division officials (CRM, TAX, ATR) told us that they were also
unsure about the timeline for implementing the LCMS within their divisions. In
contrast to the Stage 2 divisions, all of which need some type of new case
management system, the Stage 3 division officials told us that they are content
with their current systems. The officials said that they would be better off with
their current system and do not want to convert to a system that they believe will
not meet their operational needs. The concerns raised by the Stage 3 division
officials included:

      •   the level of division control over system and ability to update the system
          in a timely manner for operational needs,

      •   lack of flexibility within the system to perform the needed tasks, and

      •   inability of the system to effectively eliminate duplication of records.

      After we interviewed officials from the six Stage 2 and 3 divisions in
November 2008, LCMS Project Management Office officials provided the divisions
with an update of the project status in December 2008. The goal of these
meetings was to provide the divisions a high-level update of the project’s status.
According to officials from the six litigating divisions, the update was brief and did
not provide any certainty as to when the requirements planning for their divisions
would begin or how long it would be before the divisions would have a working
LCMS system. Accordingly, the views that the division officials provided us in
November 2008 did not change as a result of the December 2008 update briefing
by the LCMS Project Management Office.

      Because the main purpose of the LCMS is to develop an enterprise system
for sharing case information among the Department’s seven litigating divisions,
                                          20
we believe that it is important for the Department to ensure that the seven
litigating divisions are fully committed to and support the LCMS. We believe that
without such commitment, and redefinition of the requirements for the remaining
six litigating divisions, the project is at a much higher risk of failure.

Computer Sciences Corporation Response

       The draft audit report was provided to Computer Sciences Corporation
officials and we met with them in March 2009 to obtain their comments on the
report. The officials told us that they did not disagree with the factual content of
the report. The officials stated that the Department properly identified the
workflow requirements for the LCMS, but did not effectively identify other
requirements, particularly requirements related to the reporting aspects of the
LCMS. The officials said that the Computer Sciences Corporation had to perform
considerable reverse engineering to identify the business rules and requirements
necessary to produce the LCMS reports requested by the Department. The
officials also said that during the past 3 months the Department’s Project
Management Office staff had improved management oversight of the project.

Recommendation

1.   We recommend that the CIO reevaluate the viability of continuing towards
     implementation in the other seven litigating divisions. At a minimum, the
     reevaluation should consider whether:

      •   adequate funding will be made available to continue system
          development,

      •   the LCMS should be implemented in the National Security Division,

      •   the other six litigating divisions remain committed to implementation of
          the LCMS within their divisions,

      •   the system requirements for the remaining litigating divisions are
          appropriately identified and understood before further development,

      •   the defects identified from additional system integration and user testing
          are minimized, and

      •   controls are established to ensure that adequate government and
          contractor oversight will be performed on future development activities
          to minimize future schedule and cost overruns.




                                         21
                 ACRONYMS

ATR          Antitrust Division
CIV          Civil Rights Division
CIO          Chief Information Officer
CRM          Criminal Division
CRT          Civil Rights Division
Department   Department of Justice
ENRD         Environment and Natural Resources
             Division
EOUSA        Executive Office for United States
             Attorneys
FOIA         Freedom of Information Act
JMD          Justice Management Division
IRS          Internal Revenue Service
LCMS         Litigation Case Management System
LECC         Law Enforcement Coordinating
             Committee
NSD          National Security Division
OMB          Office of Management and Budget
PA           Privacy Act
PMO          Project Management Office
TAX          Tax Division
USAO         United States Attorneys Office




                       22
                 STATEMENT ON COMPLIANCE WITH
                     LAWS AND REGULATIONS

       As required by the Government Auditing Standards we tested, as
appropriate given our audit scope and objective, records, procedures, and
practices, to obtain reasonable assurance that the Department’s management
complied with federal laws and regulations, for which noncompliance, in our
judgment, could have a material effect on the results of our audit. The
Department’s management is responsible for ensuring compliance with federal
laws and regulations applicable to the Department. In planning our audit, we
identified that Office of Management and Budget Circular Number A-130,
Management of Federal Information Resources, concerned the Department’s
implementation of the LCMS project and was significant within the context of the
audit objective.

       Our audit included examining, on a test basis, the Department’s compliance
with the aforementioned circular that could have a material effect on the
Department’s operations, through interviewing auditee personnel, analyzing data,
assessing internal control procedures, and examining procedural practices. As
noted on page 12 this report, we found that the Department did not comply with
Office of Management and Budget Circular A-130 because it did not provide
effective oversight of the LCMS project to ensure the project’s completion on
schedule and within budget.




                                       23
                 STATEMENT ON INTERNAL CONTROLS

       As required by the Government Auditing Standards we tested as
appropriate, internal controls significant within the context of our audit objective.
A deficiency in an internal control exists when the design or operation of a control
does not allow management or employees, in the normal course of performing
their assigned functions, to timely prevent or detect: (1) impairments to the
effectiveness and efficiency of operations, (2) misstatements in financial or
performance information, or (3) violations of laws and regulations. Our
evaluation of the Department’s internal controls was not made for the purpose of
providing assurance on its internal control structure as a whole. The
Department’s management is responsible for the establishment and maintenance
of internal controls.

      As noted in this report, we identified deficiencies in the Department’s
internal controls that are significant within the context of the audit objective and
based upon the audit work performed that we believe adversely affect the
Department’s ability to complete the LCMS project in an timely and cost effective
manner.

       Because we are not expressing an opinion on the Department’s internal
control structure as a whole, this statement is intended solely for the information
and use of the auditee. This restriction is not intended to limit the distribution of
this report, which is a matter of public record.




                                         24
                                                                             APPENDIX I

           AUDIT OBJECTIVE, SCOPE, AND METHODOLOGY

     We completed an audit of the Department of Justice’s Litigation Case
Management System. The objective of the audit was to determine whether the
LCMS is meeting schedule, cost, functional, and performance requirements.

      We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Our audit generally
covered from the initial planning of the LCMS project in 2004 through December
2008.

      To accomplish the objective, we interviewed various Department and
Computer Sciences Corporation officials regarding the design and implementation
of the LCMS, including the:

      •   Department’s Chief Information Officer (CIO);

      •   Department’s Deputy CIO, who also serves as the Director of the Justice
          Management Division’s Enterprise Solutions Staff;

      •   LCMS Project Manager; and

      •   Computer Sciences Corporation Project Manager.

       We also interviewed officials from seven of the Department’s litigating
divisions to determine their roles in the development of the LCMS and their views
on the design and implementation of the system. 7 In addition, we reviewed
documents maintained by the LCMS Project Management Office regarding the
status of system implementation, including cost, schedule, and functional and
performance data.



      7
          In 2006, well after the LCMS project began in 2004, the Department established a new
component, the National Security Division (NSD). According to the LCMS Project Manager, the
NSD was not included in the Department’s planning for the LCMS. The LCMS Project Manager
told us that if the NSD wanted or had a need for the LCMS, future planning could accommodate
this need. The LCMS Project Manager also said that he was unsure whether the LCMS could
handle much of the NSD’s case information because the LCMS is an unclassified system and much
of the NSD’s case information is classified. We did not include the NSD in our evaluation of the
LCMS.
                                              25
      We provided the Computer Sciences Corporation with a copy of the
draft audit report and met with officials from the company in March 2009 to
obtain their comments on the report. We considered the Computer
Sciences Corporation’s comments when finalizing the report.




                                       26
                                                                   APPENDIX II

                 LITIGATING DIVISION FUNCTIONS
        Source: Department of Justice Organization, Mission and Functions Manual

Division                                 Functions
Antitrust      The major functions of the Antitrust Division are to:
Division
                  •   Seek to prevent or terminate private anti-competitive
                      conduct, which is subject to criminal and civil action
                      under the Sherman and Clayton Acts and related
                      statutes.

                  •   Review proposed mergers and acquisitions to assess
                      their competitive effect and challenge those that
                      threaten to harm competition.

                  •   Investigate and prosecute violations of criminal law that
                      affect the integrity of the investigatory process, and
                      enforce various criminal statutes related to Sherman Act
                      violations.

                  •   Investigate possible violations of the federal antitrust
                      laws, conduct grand jury proceedings, issue and enforce
                      civil investigative demands, and handle all litigation that
                      arises out of these criminal and civil investigations.

                  •   Develop and present legislative proposals of the
                      Department relating to the antitrust laws and
                      competition generally, and respond to requests for
                      advice and comments on such matters from the
                      Congress and from other agencies.

                  •   Through participation in the executive branch regulatory
                      and legislative processes, seek to ensure that
                      government action is pro-competitive or not
                      unnecessarily anti-competitive.

                  •   Assemble information and prepare reports required or
                      requested by the Congress or the Attorney General as to
                      the effect upon the maintenance and preservation of
                      competition under the free enterprise system of various
                      federal laws or programs.



                                       27
  Division                                 Functions
                   • Advise the President and the departments and agencies
                      of the executive branch on the competitive implications
                      of governmental action.
Civil Division   The major functions of the Civil Division are to:

                   •   Defend or assert the laws, programs, and policies of the
                       United States, including defending new laws
                       implementing the President's domestic and foreign
                       agenda against constitutional challenges.

                   •   Recover monies owed to the United States and victims as
                       the result of fraud, loan default, bankruptcy, injury,
                       damage to federal property, violation of consumer laws,
                       or unsatisfied judgments.

                   •   Defend the interests of the United States Treasury,
                       prevailing against unwarranted monetary claims, while
                       resolving fairly those claims with merit.

                   •   Fight terrorism through litigation to detain and remove
                       alien terrorists; defend immigration laws and policies,
                       including determinations to expel criminal aliens.

                   •   Enforce consumer protection laws and defend agency
                       policies affecting public health and safety.

                   •   Defend the government and its officers and employees in
                       lawsuits seeking damages from the United States
                       Treasury or from individuals personally.

                   •   Implement compensation programs, such as the
                       Childhood Vaccine and Radiation Exposure programs,
                       and support viable alternatives to litigation when
                       appropriate.

                   •   Represent the United States in foreign courts through
                       foreign counsel supervised and instructed by attorney
                       staff in Washington and London.

                   •   Represent the interests of the United States in civil and
                       criminal litigation in foreign courts.




                                      28
 Division                              Functions
Civil Rights   The major functions of the Civil Rights Division are to:
 Division
                  •   Investigate and, when warranted by the findings,
                      initiate legal proceedings seeking injunctive and other
                      relief in cases involving discrimination in the areas of
                      education, credit, employment, housing, public
                      accommodations and facilities, federally funded
                      programs, voting, and the rights of prisoners,
                      mentally and physically disabled persons, and senior
                      citizens.

                  •   Prosecute violations of criminal statutes that prohibit
                      specified acts of interference with federally protected
                      rights and activities, such as conspiracies to interfere
                      with or deny a certain individual or group of
                      individuals the exercise of these rights.

                  •   Prosecute violations of anti-trafficking statutes,
                      including the Trafficking Victims Protection Act of
                      2000, and play a strong role in identifying,
                      protecting, and assisting victims of human trafficking.

                  •   Rule on voting changes and recommend observer and
                      examiner activities authorized by the special
                      provisions of the Voting Rights Act of 1965, as
                      amended.

                  •   Implement Executive Order 12250 by studying,
                      reviewing and approving regulatory changes
                      proposed by all federal executive branch agencies as
                      they pertain to civil rights, including Titles VI and IX
                      and Section 5 of the Rehabilitation Act of 1973, as
                      amended.

                  •   Under the Americans with Disabilities Act, coordinate
                      the technical assistance activities of other federal
                      agencies and provide technical assistance to places of
                      public accommodation and state and local
                      governments.




                                       29
   Division                                Functions
                     •   Serve as the principal advisor to the Attorney
                         General on all matters pertaining to civil rights.

                     • Provide Department representation to, and maintain
                       close liaison and cooperation with, officials and
                       representatives of other divisions, federal agencies,
                       state and municipal governments and private
                       organizations on civil rights issues.
Criminal Division The major functions of the Criminal Division are to:

                     •   Develop, enforce, and supervise the application of
                         all federal criminal laws, except those specifically
                         assigned to other divisions.

                     •   Litigate and coordinate a wide range of prosecutions
                         and criminal investigations, including those
                         targeting: individuals and organizations that
                         commit or attempt to commit terrorist acts at home
                         or against United States persons or interests abroad
                         or assist in the financing of or providing support to
                         those acts; international and national drug
                         trafficking and money laundering systems or
                         organizations; and organized crime groups.

                     •   Formulate and implement criminal enforcement
                         policy and provide advice and assistance to all
                         levels of the law enforcement community.

                     •   Approve or monitor sensitive areas of law
                         enforcement such as participation in the Witness
                         Security Program and the use of electronic
                         surveillance.

                     •   Advise the Attorney General, the Congress, the
                         Office of Management and Budget, and the White
                         House on matters of criminal law.

                     •   Provide legal advice, assistance, and training to
                         federal, state, and local prosecutors and
                         investigative agencies.




                                        30
    Division                                 Functions
                      •    Provide leadership for coordinating international and
                           national law enforcement matters.

                      •  Provide training and development assistance to
                         foreign criminal justice systems.
 Executive Office   The major functions of the EOUSA are to:
for United States
    Attorneys          •   Facilitate coordination between the USAOs and
                           other organizational units of the Department.

                       •   Evaluate the performance of the USAOs, making
                           appropriate reports and inspections and taking
                           corrective action and providing management
                           assistance where indicated.

                       •   Publish and maintain a United States Attorneys’
                           Manual and a United States Attorneys’ Bulletin for
                           the internal guidance of the USAOs and those other
                           organizational units of the Department concerned
                           with litigation.

                       •   Supervise the operation of the Office of Legal
                           Education, which develops, conducts, and assists in
                           the training of all Department legal personnel and
                           other federal legal personnel.

                       •   Provide the Attorney General’s Advisory Committee
                           of United States Attorneys and its subcommittees
                           with such staff assistance and funds as are
                           reasonably necessary to carry out the Committee’s
                           responsibilities. Provide support to the Deputy
                           Attorney General regarding United States Attorney
                           appointments.

                       •   Plan and execute United States Attorneys’
                           conferences and other conferences in the direct
                           support of the United States Attorneys’
                           management of their offices.




                                          31
Division                          Functions
           •   Provide general direction and supervision of the
               management and policy activities of the United
               States Attorneys’ programs, including debt
               collection, health care fraud, affirmative civil
               enforcement, asset forfeiture, bank fraud,
               bankruptcy litigation, and money laundering.

           •   Provide litigating and technical support, training,
               coordination, and implementation of legislative
               initiatives. This includes the tracking and analysis
               of areas designated by the Attorney General as
               national priorities.

           •   Establish, coordinate, and interpret policy,
               guidelines, and procedures on criminal fine
               collection issues.

           •   Provide advice and representation to United States
               Attorneys and other managers in the USAOs on
               discipline, grievances, labor relations and equal
               employment opportunity, ethics, standards of
               conduct, recusals, outside activities, and an array
               of administrative, civil, and criminal legal issues.

           •   Provide general support to the United States
               Attorneys in matters involving Assistant United
               States Attorney and Special Assistant United States
               Attorney appointments.

           •   Promote, facilitate, and monitor programs with the
               USAOs designated by the Attorney General as
               priorities of the Department.




                              32
Division                         Functions
           •   Provide overall administrative management
               oversight, technical, and direct support to the
               United States Attorneys in the program areas of
               facilities management (to include acquisition of real
               property/space, construction, renovation, repair,
               and relocation); and support service programs (to
               include personal property management, simplified
               acquisition, motor vehicle support, records
               disposition, forms management, audio visual,
               graphics, printing, metered mailing, and telephone
               systems).

           •   Provide management oversight, technical, and
               direct support to the United States Attorneys in the
               planning, development, implementation, and
               administration of comprehensive security programs
               encompassing all aspects of physical,
               communication, information, personnel, and
               computer security.

           •   Analyze, design, and provide automated services
               and systems in support of the litigation mission and
               of selected administrative functions of the USAOs,
               including development, implementation, and
               monitoring of policies and programs for automated
               systems, information security, and application
               maintenance.

           •   Arrange for the acquisition and installation of
               integrated information technology systems and
               software applications in the USAOs.

           •   Analyze user requirements, design, develop,
               deploy, and support the operations of the
               automated systems for caseload and collections
               systems and administrative/litigative applications in
               the districts and in the EOUSA; provide technical
               assistance and user training; produce the annual
               Statistical Report; and monitor the quality of the
               data from the USAOs.




                             33
Division                         Functions
           •   Formulate, implement, and administer bureau-level
               human resource management policies and
               programs for the 94 USAOs located nationwide.
               Programs affect Assistant United States Attorneys
               appointed under Title 28 and compensated under a
               separate pay system as well as support staff
               appointed under Title 5, United States Code.
               Provide technical oversight of the USAOs delegated
               personnel authorities, and provide operating
               personnel and pre-employment security services to
               the other USAOs.

           •   Support the USAOs in the conduct of their Law
               Enforcement Coordination Programs as directed by
               the Attorney General–provide training and
               guidance; assist in providing speakers, materials,
               and any other technical assistance for the Law
               Enforcement Coordinating Committee (LECC)-
               related functions; act as liaison with the LECC-
               Victim Witness Subcommittee of the Attorney
               General’s Advisory Committee; and assist in the
               promotion of the LECC Program throughout the
               federal government and to local governments.

           •   Serve as liaison on Victim-Witness assistance
               activities within the USAOs, supporting the United
               States Attorneys in their efforts to ensure
               compliance with the Attorney General’s Guidelines
               in relation to victim and witness assistance.

           •   Manage the United States Attorneys’ appropriation,
               including direct and indirect budget authority and
               personnel resources. Provide budget and fiscal
               assistance and guidance to the 94 USAOs.




                             34
Division                        Functions
           •   Analyze and provide data related to the work and
               resources of the USAOs to assist in litigative,
               management, and budget priorities. Assist
               Department and USAO managers in all aspects of
               data, trends and management analysis, also
               serving as a resource and repository for data.
               Ensure quality control in the use of data and its
               interpretation.

           •   Respond to requests under the Freedom of
               Information Act (FOIA) and Privacy Act (PA) on
               behalf of the USAOs; coordinate and respond to
               litigation arising from these matters and provide
               advice and training to the United States Attorneys’
               staffs relating to FOIA/PA.

           •   Provide centralized leadership, coordination and
               evaluation of all equal employment efforts
               throughout the USAOs – administering both the
               Affirmative Action and Complaints Processing
               Programs.

           •   Respond to inquiries from members of Congress
               and private citizens and review and comment on
               legislative and regulatory proposals relating to the
               activities of the USAOs.

           •   Provide technical, administrative, design, and
               maintenance support in the areas of voice, data,
               and video telecommunications to provide efficient
               communications and to enhance cooperative efforts
               among the USAOs and the litigating divisions of the
               Department.

           •   Provide information and guidance to USAOs on
               pending legislation pertinent to the work of the
               USAOs; prepare testimony and background for
               congressional oversight and appropriations
               hearings.




                             35
 Division                             Functions
Environment   The major functions of the ENRD are to:
and Natural
 Resources       •   Conduct litigation under federal statutes enacted to
  Division           protect the environment; require the cleanup of
                     hazardous waste or recover the costs of cleanup;
                     regulate air and water pollution; control dredging
                     and filling in navigable waters; and control the use
                     of pesticides.

                 •   Conduct litigation related to the control and
                     abatement of pollution to the nation’s air and water
                     resources, and the regulation and control of toxic
                     substances, pesticides, and solid wastes.

                 •   Prosecute criminal cases for violations of the
                     criminal provisions of applicable federal statutes.

                 •   Conduct litigation concerning the management of
                     the fisheries and other living resources of the
                     coastal and marine environments, and the
                     management of the coastal zone.

                 •   Conduct litigation under numerous federal statutes
                     and laws involving public land matters on behalf of
                     the Departments of the Interior, Agriculture,
                     Defense, and others.

                 •   Conduct litigation under the National Environmental
                     Policy Act, the Surface Mining Control and
                     Reclamation Act, and the Tucker Act (principally in
                     the United States Court of Federal Claims).

                 •   Prosecute eminent domain (condemnation)
                     proceedings by which lands necessary for
                     congressionally authorized public purposes are
                     acquired on behalf of the United States, its
                     agencies, and its departments.




                                    36
 Division                                Functions
                  •   Conduct civil litigation affecting the rights of
                      Indians under treaties, acts of Congress, and
                      executive orders in which the United States is
                      acting as trustee on behalf of the Indians.

                  •   Defend the United States against monetary claims
                      of tribes, bands, or other identifiable groups of
                      American Indians, primarily before the United
                      States Court of Federal Claims.

                  •   Conduct the Division’s appellate litigation in federal
                      circuit courts of appeals and state appellate
                      tribunals and assist the Office of the Solicitor
                      General with litigation of our cases or cases of
                      concern in the Supreme Court.

                  •   Provide policy direction and legislative guidance for
                      all programs in the Division.

                  • Provide for management, direction, budget
                    formulation and execution, ensure compliance with
                    the Freedom of Information and Privacy Acts, and
                    provide advice on applicable ethical responsibilities.
Tax Division   The major functions of the Tax Division are to:

                  •   Prosecute and defend in all trial courts except the
                      United States Tax Court civil suits arising under the
                      internal revenue laws. These matters include tax
                      refund suits brought against the United States,
                      bankruptcy cases involving federal tax claims,
                      judicial actions to enforce administrative
                      summonses, affirmative judicial actions to effect
                      tax collection, and tort and damages actions
                      against the United States and/or Internal Revenue
                      Service (IRS) and Department officials.




                                     37
Division                            Functions
           •   Enforce federal criminal tax law and related
               criminal laws by reviewing referrals from the IRS,
               authorizing investigation and/or prosecution where
               appropriate, and either conducting or supervising
               authorized prosecutions. Division attorneys
               investigate and prosecute individuals and
               corporations who attempt to evade taxes, willfully
               fail to file tax returns, submit false tax forms, and
               otherwise try to defraud the federal Treasury, often
               focusing on violations involving international
               activity, such as the use of offshore trusts and
               foreign bank accounts to evade taxes. They also
               investigate and prosecute tax violations that occur
               in the course of other criminal conduct – such as
               crime linked to international terrorism, illegal drug
               trafficking, securities fraud, bankruptcy fraud,
               health-care fraud, organized crime, and public
               corruption.

           •   Represent the United States in the courts of
               appeals in nearly all federal civil tax cases,
               including those appealed from the United States
               Tax Court, and in all federal criminal tax cases
               prosecuted by Tax Division attorneys. Division
               attorneys also supervise appeals in criminal tax
               cases tried by the USAOs around the country.

           •   Advise the IRS and the Department of the Treasury
               concerning proposed legislation, regulations,
               guidance, procedures, and policy relating to taxes
               and tax enforcement. Division attorneys also
               participate in the negotiation of international tax
               assistance treaties and agreements.




                             38
                                                              APPENDIX III

   DEPARTMENT’S RESPONSE TO THE DRAFT AUDIT REPORT




                                               U.S. Department of Justice

                                               Washington, D.C. 20530




MEMORANDUM FOR GLENN A. FINE
               Inspector General

FROM:              Vance E. Hitch
                   Chief Information Officer

SUBJECT:           Draft Audit Report – The Department of Justice’s Litigation
                   Case Management System

The Justice Management Division has received your Draft Audit Report as
captioned above and we appreciate your efforts, and those of your staff, in
assessing the progress of the Litigation Case Management System (LCMS). We
look forward to your observations and final recommendation.

We have completed our review of the report and have enclosed our response to
your preliminary findings and recommendation.

Please contact me at 202-514-0507or Mr. John Murray at 202-305-5936 if you
have any questions.




                                      39
The Justice Management Division (JMD) Response to the Department of
Justice (DOJ) Office of the Inspector General (OIG) Draft Audit Report:
Litigation Case Management System

Response to the Recommendation:

The CIO believes that it has followed very acceptable practices in selecting,
applying and providing oversight of the LCMS performance based contract for IT
integration services. The contract wherein the contractor was risking 25% of its
fees and the contractual milestones for performance evaluation were deemed
appropriate based on the functional risk (upgrade of existing litigation case
management system), IT technical risk (COTS – Siebel Government Sector
Software) and the experience of the contractors that were evaluated during the
procurement process. Also, a part of the risk inherent in basing systems
development on a software product was mitigated by contracting to only pay for
the software licenses as the system was deployed to users.

Further, the CIO believes the PMO was staffed with appropriate expertise given
the risk of the project and staffing was increased as risks materialized. In
addition to the PMO, an equally important government role on the project is
performed by personnel from EOUSA who were and are integrally involved in
developing and approving requirements, process work flows, training and user
acceptance testing.

Concerning oversight activities, the CIO believes many oversight activities were
performed on the program (design review by Oracle-Siebel, regular CSC quality
assurance reviews by independent evaluators, EVM surveillance reviews by
independent EVM experts, as well as current re-evaluations of the program by a
CSC Tiger Team of independent IT experts, by the CTO working with MITRE, and
an independent Oracle-Siebel expert working with the PMO. At a pivotal point in
the project as soon as the government became aware of quality and
completeness issues, it inserted additional testing rigor on the contractor. Also,
because of this program’s importance and issues the CIO and Deputy CIO have
spent considerable time with contractor executives to focus attention on problem
areas.

Also, the OIG report indicates that the CIO has not continued systems
development work with the contractor for the other litigating divisions. This
action was taken because of the issues that had materialized with the current
work and our belief that it was in the government’s best interest to have the
contractor focus attention and resources on resolution of these issues. The CIO
plans to and firmly endorses the recommendation of OIG that the CIO reevaluate
the viability of continuing towards the implementation of the system in the other
litigating divisions.


                                        40
The Recommendation #1: We recommend that the CIO reevaluate the
viability of continuing towards implementation in the other seven
litigating divisions. At a minimum, the reevaluation should consider
whether:

   •   adequate funding will be made available to continue system development,

   •   the LCMS should be implemented in the National Security Division,

   •   the other six litigating divisions remain committed to implementation of the
       LCMS within their divisions,

   •   the system requirements for the remaining litigating divisions are
       appropriately identified and understood before further development,

   •   the defects identified from additional system integration and user testing
       are minimized, and

   •   controls are established to ensure that adequate government and
       contractor oversight will be performed on future development activities to
       minimize future schedule and cost overruns.

JMD Response – Agree. The Department’s Chief Information Officer will
reevaluate the viability of continuing towards implementation in the other seven
litigating divisions. This reevaluation will address, at a minimum, the six bulleted
items identified above.

In addition, the OIG’s recommendation is consistent with the planning approach
that has been developed and discussed with the litigating divisions. This planning
approach is centered on the analysis of the business and technical solution
architectures. Development of the Business Solutions Architecture will include
analyzing the business needs of the litigating divisions and assessing them
relative to the business capabilities supported by LCMS. Development of the
Technical Solutions Architecture will include analyzing the existing LCMS software
assets and recommending the optimal technical approach for meeting the
business requirements. The results from these analyses will drive the
implementation approach across the seven litigating divisions.




                                         41
                                                                  APPENDIX IV

    OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION
      ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
                   TO CLOSE THE REPORT


      In its response to the draft audit report, the Justice Management Division
provided general comments regarding the Department’s oversight of the LCMS
contact, as well as specific comments on our recommendation. In its general
comments, the Justice Management Division stated that the CIO believed that:

     •   his staff followed acceptable practices in selecting, applying, and
         providing oversight of the LCMS contract,

     •   Project Management Office (PMO) staff had appropriate expertise and
         PMO staffing was increased as risks materialized, and

     •   the government performed many oversight activities of the LCMS
         contractor.

      These and other comments in the Justice Management Division’s response
suggest that the government’s oversight of the LCMS contractor was adequate.
We disagree. As the audit found, the contractor is more than 2 years behind
schedule in implementing the LCMS in the EOUSA and USAOs, and the estimated
cost to complete the work in the EOUSA and USAOs has increased by $26 million,
or almost 75 percent. The substantial schedule and cost overruns clearly indicate
that the government’s oversight was not adequate and did not sufficiently deter
the cost and time overruns. Further, contrary to the Department’s response, we
found that project staffing was not increased as risks materialized. Our audit
also found that when the project began to experience significant delays and cost
overruns in 2006 and 2007, the Department did not commit additional full-time
employees until February 2008.

      Our analysis of the Justice Management Division’s specific responses to the
audit recommendation is addressed below.

Recommendation

1. Resolved. We recommended that the CIO reevaluate the viability of
   continuing towards implementation of the LCMS in the other seven litigating
   divisions, and that at a minimum, the reevaluation should consider whether:

     •   adequate funding will be made available to continue system
         development,
                                        42
  •   the LCMS should be implemented in the National Security Division,

  •   the other six litigating divisions remain committed to implementation of
      the LCMS within their divisions,

  •   the system requirements for the remaining litigating divisions are
      appropriately identified and understood before further development,

  •   the defects identified from additional system integration and user testing
      are minimized, and

  •   controls are established to ensure that adequate government and
      contractor oversight will be performed on future development activities
      to minimize future schedule and cost overruns.

The Justice Management Division agreed with the recommendation and stated
that its reevaluation will address each of the six items above. We can close
this recommendation when we review documentation showing the results of
the Department’s reevaluation of the viability of continuing the LCMS in the
other seven litigating divisions.




                                     43
